USAID
OFFICE OF INSPECTOR
GENERAL

 Audit of USAID/Regional Center for Southern
 Africa's Fiscal Year 2000 Financial Operations
 and Controls, Audit Report No. 4-690-01-002-F




Audit Report (Report No. 4-690-01-002-F)
April 2, 2001




                       PRETORIA, SOUTH AFRICA
                    OFFICE OF INSPECTOR GENERAL
            U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT
        U.S A GENCY FOR
        INTERNATIONAL
        DEVELOPMENT

        RIG/PRETORIA

        A PRIL 2, 2001


     MEMORANDUM


     FOR:        REGIONAL DIRECTOR, USAID/RCSA, Edward Spriggs

     FROM:        Regional Inspector General/Pretoria, Joseph Farinella

     SUBJECT: Audit of USAID/Regional Center for Southern Africa's Fiscal Year 2000 Financial
              Operations and Controls, Audit Report No. 4-690-01-002-F

This memorandum is our report on the Audit of USAID/Regional Center for Southern Africa's
Fiscal Year 2000 Financial Operations and Controls, Report No. 4-690-01-002-F. We have
received your comments on the draft report and have included them in their entirety as an
appendix to this report (see Appendix II). This report contains no recommendations for your
action.

I appreciate the cooperation and courtesy extended to my staff during the audit.
Summary of   Our audit of the Regional Center’s fiscal 2000 year-end financial operations
Results      and controls focused on determining whether financial data relating to its
             accruals, project advances, 1221 reconciliation and U101 reporting processes
             were accurately stated and adequately supported on its U101 report.

             Our results showed that the Regional Center’s fiscal 2000 year-end financial
             data relating to its accruals and project advances as shown on its U101 report
             were accurately stated and adequately supported with respect to the items
             tested. However, our audit noted weaknesses in the SF-1221 reconciliation
             and U101 reporting process. Specifically, we found that the Regional Center
             had reconciling items outstanding for over three years, reconciling items that
             could not be identified, and an outstanding difference with U.S. Treasury
             records. The Regional Center also had long-standing open obligations on its
             U101 report because contracts had not been closed out. We are not making
             recommendations since the Regional Center is taking action on all the items.

             These areas are discussed in more detail in the Audit Findings section of this
             report.



Background   Beginning in fiscal year (FY) 1996, the Government Management Reform Act
             required agencies to complete audited financial statements each year covering
             all accounts and associated activities of the agencies. These financial
             statements are intended to not only report the financial position and results of
             operations of the agency, but also to provide further information allowing
             Congress and the public to assess management performance and stewardship
             of agency resources. As a result of this legislation, the U.S. Agency for
             International Development’s (USAID) management is required to compile
             USAID-wide financial statements and supplemental information. For FY
             2000, these financial statements are to be audited and submitted to the Office
             of Management and Budget (OMB) no later than March 1, 2001.

             In compiling these financial statements, USAID incorporates financial data
             transmitted by its 36 accounting centers located around the world and relies on
             the systems in place at each of these centers to ensure that the data is accurate
             and reliable. Prior Office of Inspector General (OIG) audits, however, have
             identified a number of material weaknesses in USAID’s existing accounting
             systems. For example, as a part of the FY 1999 Government Management
             Reform Act audit, the OIG found that the overseas accounting stations were
             not properly reconciling disbursements and collections with the U.S.
             Disbursing Officer (USDO) and the U.S. Treasury. The OIG also found that
             the overseas accounting stations were not properly calculating and reporting
             accrued expenses and related accounts payables or reporting outstanding
             advances at year-end.


                                                                                         2
                  This review is part of an USAID-wide effort, led by the OIG’s Office of
                  Financial Audits in Washington, D.C., to audit USAID’s FY 2000 financial
                  statements prior to their submission to OMB. The OIG used a two-phase
                  approach in auditing these financial statements. First, the internal control
                  phase focused on gaining an understanding of USAID’s internal control
                  structure and assessing control risk. The results were used to determine the
                  nature, timing and extent of testing in the second phase—substantive testing.
                  This phase focused on testing the year-end financial data reported by the
                  Mission Accounting and Control System (MACS) for accuracy, completeness,
                  and reliability. Ten randomly selected overseas missions and
                  USAID/Washington were included in this review.



Audit Objective   This audit involved a review of USAID/Regional Center for Southern Africa’s
                  (RCSA) fiscal 2000 year-end financial data and was designed to answer the
                  following question:

                         Was USAID/RCSA’s fiscal 2000 year-end financial data relating to its
                         accruals, project advances, 1221 reconciliation process and U101
                         reporting process accurately stated and adequately supported on its
                         U101 report?

                  Appendix I provides a complete discussion of the scope and methodology for
                  this audit.


Audit Findings
                  Was USAID/RCSA’s fiscal 2000 year-end financial data relating to its
                  accruals, project advances, 1221 reconciliation process and U101
                  reporting process accurately stated and adequately supported on its U101
                  report?

                  USAID/RCSA’s fiscal 2000 year-end financial data relating to accruals and
                  project advances as shown on its U101 report were found to be accurately
                  stated and adequately supported with respect to the items tested. However, we
                  identified weaknesses in the 1221 reconciliation and the U101 reporting
                  processes.

                  Using statistical sampling, we tested financial transactions for each of the four
                  accounting processes included in our audit objective. These tests included
                  tracing transaction data reported on the Regional Center’s September 30,
                  2000, U101 report to appropriate supporting documents as well as other tests
                  to ascertain whether the data was adequately stated and accurately supported.
                  The results of our review are summarized below.



                                                                                              3
Accruals

The Regional Center’s accruals were accurately stated and adequately
supported on the U101 report. Specifically, the Regional Center’s accruals
were:

   • based on reasonable estimates;

   • reduced prior to being posted to MACS for disbursements made just
       before the quarter ended; and

   • posted properly to MACS and reversed accordingly.
We also verified that the Regional Center complied with recommendations
made during the internal control phase of this audit, which was conducted by
our Washington Office of Financial Audits. During that phase, the auditors
were not able to attest to the validity of the accrual estimates due to lack of
supporting documentation. The auditors suggested that the Regional Center
attach documentation supporting the accrual estimates to the accrual
worksheets. The Controller promptly implemented this suggestion.

Project Advances

The Regional Center’s project advances were accurately stated and adequately
supported on the U101 report. Specifically, the Regional Center’s advances
were:

   • approved administratively by the project officer;

   • given on an as-needed basis;

   • certified for payment and liquidated; and

   • reviewed by the Regional Center on a quarterly basis to ensure that
       funds advanced were not in excess of immediate disbursement needs.

Furthermore;

   • unliquidated funds were refunded to the Regional Center; and

   • all remittances of earned interest on advances were properly reported
       in the U101 report.




                                                                           4
We also verified that the Regional Center complied with a USAID directive
implemented in FY 1999. The directive instructed missions to report
estimated accrued expenses that are covered by outstanding advances at fiscal
year-end. This permits USAID/Washington to reduce its payables by the
amount of any outstanding obligations by recording an adjustment to
USAID’s general ledger. The Regional Center complied with this directive.

1221 Reconciliation Process

The Regional Center did not timely and effectively perform the 1221
reconciliation process. Specifically, we found that the Regional Center had
reconciling items outstanding for over three years, reconciling items that could
not be identified, and an outstanding difference with U.S. Treasury records.
Failure to implement timely and effective reconciliation processes could increase
the risks of fraud, waste and mismanagement of funds.

The SF-1221—Statement of Transactions According to Appropriations, Funds,
and Receipt Accounts (Foreign Service Account)—is prepared by the U.S.
Disbursing Officers (USDOs) that collect and/or disburse foreign currency. This
report provides the U.S. Treasury (Treasury) with a monthly statement of
payments and collections made by the USDOs. Each month the missions are
required to reconcile their records with USDO records.

In June of FY 1999, the Regional Center implemented an aggressive plan to
identify, research and clear reconciling items on a monthly basis; thus, clearing a
significant number of reconciling items.

We tested the monthly reconciliations for three appropriations: 72X1021,
72X1014 and 72X1000. Our results showed that the Regional Center:

       • tracked the status of the reconciling items on a monthly basis;

       • maintained supporting documentation to show how the reconciling
           items cleared; and

       • verified that the reconciling items reported on the U101 report were
           consistent with the reconciliation worksheets.

However, the Regional Center had:

       • reconciling items that have remained uncleared (i.e., outstanding) for
           over three years;

       • “unknown” reconciling items that could not be identified; and


                                                                              5
       • a difference with Treasury records that had not been cleared.
These issues are discussed in more detail below.

Uncleared Reconciling Items - At September 30, 2000, the Regional Center
had a backlog of approximately 284 uncleared reconciling items with an
absolute value of $2.9 million in the three appropriations tested. The reconciling
items exceeded the two-to-three month timeframe recommended by Treasury to
clear such items. The Regional Center attributed the uncleared reconciling items
to incomplete records received from transferred and closed missions.

The Regional Center maintains the residual accounting records for three
closed missions: Lesotho, Swaziland and Botswana and provides accounting
services for two transferred missions: Namibia and Angola. (In July of 1998,
USAID/RCSA transferred accounting responsibility for Angola to
USAID/South Africa.) Regional Center officials stated that incomplete
records were received from the missions when the accounting services were
transferred to them about three years ago. As indicated by Table 1, 95.5
percent of the total dollar value of the Regional Center’s reconciling items
have been outstanding for over three years. The next step would be for the
Regional Center to request USAID/Financial Management (USAID/FM) to
write-off the uncleared items. However, the Controller stated that all efforts
would be made to clear the reconciling items before requesting write-off from
USAID/FM.

           USAID/RCSA’s Outstanding Reconciling Items
                   As of September 30, 2000
                                (Table 1)
                                                      Percentage
                      Number        Dollar Value
                                                     (Based on the
                         of          (Absolute
           Age                                       Dollar Value)
                       Items          Value)

  Over 3 years               203       $2,750,665         95.50

  2-3 years                   33            48,914         1.70

  1-2 years                   28            50,257         1.75

  6 months-1 year               8            9,852          .34

  4-6 months                  12            20,400          .71

  Totals                     284       $2,880,088       100.00

USAID financial management guidance requires overseas missions to reconcile



                                                                             6
their monthly disbursement records to the payments made on the mission’s
behalf as reported by the USDO’s overseas and the Treasury Regional Finance
Centers in the United States. To ensure accountability over each mission’s cash
reconciliation, the guidance also requires missions to follow up on any
cumulative reconciling items that remain unreconciled (i.e. uncleared) and are
not cleared within two months.

The Regional Center has implemented a successful plan to identify, research and
clear reconciling items on a monthly basis. The Controller also plans to exhaust
all efforts to clear the reconciling items before requesting write-off from
USAID/FM. Therefore, we are not making a recommendation on this issue.

Unknown Reconciling Items - The Regional Center has approximately $1.5
million of “unknown” cumulative reconciling items. The reconciling items are
tagged “unknown” because the source or derivation of the items could not be
readily identified—no record of the existence or occurrence of the transactions
could be found in either the USDO or the Regional Center’s records. The
Regional Center attributed this to incomplete records received from the two
transferred and three closed missions. The Controller’s Office has initiated
efforts to research and clear the unknown reconciling items. At the time of our
testing, the Regional Center had reduced the items to approximately $1.3
million, which will be reflected in their records at the beginning of FY 2001.
Because of the actions planned and initiated, we are not making a
recommendation on this issue.

Outstanding Difference with Treasury - Since July 1999, a difference of
$46,588 has existed between the Regional Center and Treasury records. This
difference resulted from the incorrect posting of a deposit transaction on the
July 1999 SF-224 report. The Regional Center researched the difference and
corrected the posting on the August 1999 SF-224 report. However, Treasury
did not clear the difference and continues to report it on the FMS-6652,
Statement of Differences report.

The SF-224, Statement of Transactions is prepared by each agency at the
close of each accounting month in order to report their monthly accounting
activity to Treasury. The SF-224 report provides Treasury with information
on an agency’s deposits and disbursements at financial institutions. Treasury
relies on the totals reported on the SF-224 to identify differences between
Federal agencies’ records and Treasury control totals reported by financial
institutions. If there is a discrepancy, Treasury generates an FMS 6652,
Statement of Differences, for both disbursement and deposit transactions.
According to the Treasury Financial Manual, dated November 1999, “All
agencies must research and resolve differences reported on the monthly FMS-
6652”.




                                                                           7
With assistance from USAID/Washington, the Regional Center is working
with Treasury to clear the difference. Therefore, we are not making a
recommendation on this issue.

U101 Reporting Process

The Regional Center’s U101 report was accurately stated and adequately
supported. However, the Regional Center had open obligations on the
September 30, 2000 report that have not been liquidated or de-obligated due
to an untimely close-out of contracts. This issue is explained in more detail in
the following paragraphs.

Contract Closeout - The Regional Center has not taken the necessary steps to
officially close out expired or terminated contracts. Many of the contracts,
dated as early as FY 1989, had no cumulative disbursements made against them
in FY 2000. According to the Regional Contracting Office, contract closeout is
done on an ad-hoc basis because they do not have available staff. As a result,
the Regional Center has open obligations on its September 2000 U101 report
that should be liquidated or de-obligated.

The contract closeout process is the responsibility of the Contracts Division.
To officially close out a contract, the contracting officer must ensure that the
terms of the agreement have been met which include ascertaining that (1) all
advances have been liquidated, (2) there are no outstanding claims, (3) all
required reports have been received, and (4) all performance requirements
have been completed.

The Agency’s written procedures—Automated Directives System, Chapter
621, Obligations—states that, “Obligated funds must be deobligated when a
determination is made that the funds are no longer needed for the purposes for
which they were obligated or the funding exceeds forward funding guidelines
without proper authorization. The funds must generally be deobligated by the
obligating official.”

The written procedures further states, “A careful review of the unliquidated
obligations strengthens the Agency’s internal controls by deleting balances
from the accounting system that are no longer required for future payments
and helps to identify funds that can be reprogrammed for current
requirements. In addition, the review supports the Agency’s formal year-end
certification to the Department of Treasury.”

The Regional Center identified this issue as a weakness in its Federal
Managers’ Financial Integrity Act reviews for FYs 1998-2000. The Regional
Center is aware of the backlog of contracts requiring closeout and plans to
hire an additional staff member whose sole responsibility will be to close out
contracts. Therefore, we are not making a recommendation on this issue.


                                                                            8
                 USAID/RCSA agreed with the findings and conclusions made in the draft
Management       audit report. In its response, USAID/RCSA advised us that the outstanding
Comments and     difference of $46,588 between the Regional Center and Treasury records had
Our Evaluation   been cleared up with assistance from USAID/Washington.

                 Furthermore, USAID/RCSA noted that its aggressive plan to clear reconciling
                 items on a monthly basis began in June 1999 and that it no longer provides
                 accounting services to Angola. We have modified our report to reflect this
                 additional information.




                                                                                       9
                                                                                   Appendix I


Scope and     Scope
Methodology
              We audited USAID/RCSA’s fiscal 2000 year-end financial data in accordance
              with generally accepted government auditing standards.

              This audit was conducted by RIG/Pretoria as part of an USAID-wide audit led
              by the OIG Office of Financial Audits in Washington to audit USAID’s FY
              2000 financial statements. In auditing these financial statements, the OIG
              performed a review of USAID’s financial controls which included testing a
              sample of transactions on a stratified statistical basis to ensure that the year
              end financial data reported through Mission Accounting and Control System
              (MACS) on the U101 report was accurate and reliable. This review was
              performed both at USAID/Washington and at ten randomly selected overseas
              missions including USAID/RCSA. This report deals solely with the results of
              our audit at USAID/RCSA.

              The audit focused on reviewing financial data generated under the following
              four accounting processes:

                      1) Accruals
                      2) Project Advances
                      3) 1221 Reconciliation Process
                      4) U101 Reporting

              In auditing these accounting processes, we selected transactions on a stratified
              statistical basis from the MACS to determine whether the transactions were
              accurately stated and adequately supported on the September 30, 2000, U101
              report.

              Accruals. During the last quarter of FY 2000, the Regional Center processed
              150 accrual transactions with a total value of approximately $23 million. We
              tested 30 transactions, or 20 percent, which represented approximately $21
              million, or 91 percent, of the total dollar value.

              Project Advances. During the last quarter of FY 2000, the Regional Center
              processed 42 project advance transactions with a total value of approximately
              $3.1 million. We tested 30 transactions, or 71 percent, which represented
              approximately $3.0 million, or 97 percent, of the total dollar value.

              SF-1221 Reconciliation Process. We tested the Regional Center’s process of
              reconciling the SF-1221 report to its records by reviewing the monthly


                                                                                          10
reconciliations for three appropriations: 72X1021, 72X1014 and 72X1000 for
the fourth quarter of FY 2000.

U101 Reporting. We tested selected line items on the September 30, 2000,
U101 report for accuracy, completeness and reliability.

Our fieldwork was conducted at the USAID/RCSA in Gaborone, Botswana from
October 25 to November 17, 2000.

Methodology

The objective of this audit was to determine whether USAID/RCSA’s fiscal
2000 year-end financial data relating to its accruals, project advances, 1221
reconciliation process and U101 reporting process were accurately stated and
adequately supported on its U101 report.

To accomplish this audit objective, we conducted interviews with officials at
USAID/RCSA, principally in the Controller’s Office, to gain an understanding
of the Regional Center’s existing procedures and controls covering each of the
above four processes. Our review also included tests of stratified statistically
selected financial data from the Regional Center’s accounting system as
described earlier in the Scope section.

The data was then traced to appropriate supporting records to verify whether the
data was accurately stated and adequately supported. The audit also included a
review of the procedures and controls in place at the time of our fieldwork and
whether prior recommendations were properly implemented.

Our reviews showed that the internal control processes at the USAID missions
were ineffective. Therefore, we assessed the risks associated with USAID
missions’ internal control structure at the maximum level and conducted
maximum testing.

 A description of the specific areas tested under each accounting process is
summarized below.

Accruals. We conducted interviews with the accountants and the project
officers to determine whether the accruals were based on reasonable
estimates. We reviewed the accrual worksheets and MACS reports to ensure
that the accruals were reasonably accurate, adjusted for subsequent
disbursements, and posted correctly to MACS.

Project Advances. Our tests included verifying that the project officer
administratively approved the advances, the advance request amount was
appropriate and represented the entity’s immediate disbursing needs, and that



                                                                          11
the advance was given on an “as needed” basis. We also reviewed the
expenditure reports to determine whether interest was earned and remitted to
the Regional Center; recalculated the advance request amount to ensure that it
was reduced by any outstanding unliquidated amounts; and verified that the
payment was properly liquidated. In addition, we reviewed the status of
outstanding advances.

1221 Reconciliation Process. Our tests included ensuring that the Regional
Center was identifying, researching and clearing reconciling items in a timely
manner and properly recording the reconciling items on the U101 report. We
prepared an aging analysis of the outstanding reconciling items to determine
how long the items remained outstanding before the Regional Center cleared
them. For those reconciling items that were cleared, we reviewed
documentation to ensure they were cleared appropriately.

U101 Reporting Process. Our testing of the U101 reporting process involved
determining whether the line items reported on the U101 report were accurate.
We reviewed the preparation and reconciliation of the U101 report by tracing
the line items to supporting documentation.




                                                                         12
                                                                                          Appendix II


Management
Comments




                                                  memorandum
Regional Center for Southern Africa




               Date:         March 12, 2001

               TO:            Regional Inspector General/Pretoria, Joseph Farinella

               FROM:          Acting of USAID/Regional Director, USAID/RCSA, D. Annette Adams

               SUBJECT: Audit of USAID/Regional Center for Southern Africa's Fiscal Year 2000
                        Financial Operations and Controls, Audit Report No. 4-690-01-XXX-F

         We have reviewed the final report on the subject audit. We agree to the finding and conclusions
         made.

         We are pleased to note that the RCSA began an aggressive plan to identify, research and clear
         reconciling items on a monthly basis in June of 1990, not the latter part of FY 2000. This
         coincides with the arrival of our present Regional Controller to post, Dean Walter. We also are no
         longer providing accounting services to Angola.

         The amount of $46,588 noted in your report as a difference between the Regional Center and
         Treasury records has now been cleared with the assistance of USAID/W.

         We appreciate the hard work that went into conducting the audit. A great deal of material was
         covered in a relatively short period. The Controller and his OFM told numerous occasions or me
         that it was a pleasure to work with such a competent group of professionals. Most encouraging
         was the manner in which they interacted with our staff and their dedication to improving our
         operations, not just finding problems or crafting recommendations to fill the audit report. Kudos to
         your staff.
